No. 20-

In the Supreme Court of the United States
KENIN L. EDWARDS,
v.
THE HONORABLE MICHAEL L. ATTERBERRY; THE HONORABLE
SCOTT J. BUTLER; RAMON ESCAPA; ERIC MYERS
ON PETITION FOR A WRIT OF CERTIORARI TO THE
ILLINOIS SUPREME COURT

PETITION FOR A WRIT OF CERTIORARI
ROBERT J. HANAUER
Counsel of Record
PATRICK T. SHEETS
HANAUER LAW OFFICE, LLC
456 Fulton Street, Suite 200
Peoria, Illinois 61602
(309) 966-4423
rob@hanauerlaw.com

i
QUESTION PRESENTED

The question presented is:
1. Whether it is a violation of due process for the Illinois Supreme Court, after being fully advised in the premises, to abstain from addressing whether the trial court has
criminal jurisdiction over Petitioner, thereby forcing Petitioner to proceed to a sentencing hearing and potential
conviction and appeal in the absence of criminal jurisdiction.

ii
PARTIES TO THE PROCEEDINGS

1. The Petitioner, who was also a petitioner in the Illinois Supreme Court and defendant in a criminal case in the
circuit court of Schuyler County, Illinois, is Kenin L. Edwards, a citizen and resident of Tazewell County, Illinois.
2. The Respondent, the Honorable Michael L. Atterberry, is a Resident Circuit Judge of Menard County in the
Eighth Judicial Circuit of Illinois. The Respondent, the Honorable Scott J. Butler, is a Resident Circuit Judge of Schuyler
County in the Eighth Judicial Circuit of Illinois. The Respondent, Ramon Escapa, is the Schuyler County State’s Attorney, and a resident, of Schuyler County in the Eighth Judicial Circuit of Illinois. The Respondent, Eric Myers, is a
Illinois Conservation Police Officer and resident of the
State of Illinois.
LIST OF RELATED PROCEEDINGS

People of the State of Illinois v. Kenin Edwards
Case No. 2016-CV-09
Kenin L. Edwards v. Honorable Michael L. Atterberry and
Honorable Scott J. Butler, Judges of the Eighth Judicial Circuit
Docket No. 123370
Kenin Edwards v. Michael Atterberry, Scott Butler, Ramon
Escapa, Eric Myers, Melissa Dennis, and John Heidinger
each in his or her personal capacity, Michael Atterberry
and Melissa Dennis each in his or her official capacity.
Case No. 4:19-cv-04109
Kenin Edwards v. Ramon Escapa
Case No. 2019-MR-19

iii
Kenin Edwards v. Elaine Boyd and Brian Sorrell
Case No. 2019-MR-20
Kenin Edwards v. Illinois Department of Natural Resources,
a statutorily created entity; Wayne Rosenthal, in his official
capacity as Director; and M. Dennis, in her official capacity
within the Illinois Department of Natural Resources and
within the “Office of Law Enforcement.”
Case No. 18-MR-98
Kenin Edwards v. Michael Atterberry, Scott Butler, Ramon
Escapa, Eric Myers
Case No. 2019-MR-280

iv
TABLE OF CONTENTS
Page(s)

QUESTION PRESENTED..........................................i
PARTIES TO THE PROCEEDINGS.........................ii
LIST OF RELATED PROCEEDINGS..................ii, iii
TABLE OF AUTHORITIES.......................................................vi-viii
OPINION BELOW................................................................................1
STATEMENT OF JURISDICTION...........................1
CONSTITUTIONAL PROVISION INVOLVED ........1
STATEMENT OF THE CASE ....................................1
REASONS THE WRIT SHOULD BE GRANTED ........................ 5
I. The Decision Below Violates Petitioner’s Due Process
Rights Because it Fails to Address Whether
Jurisdiction Existed, Thereby Forcing Defendant to
Risk Conviction and Sentence, and Appeal, in Order to
Establish That Jurisdiction Never Existed........................5
II. The Criminal Code Does Not Permit Criminal Charges
Based Upon Regulations Alone.............................................7
III. The Only Statute Cited By The State In The Relevant
Charges—Section 10 Of The Illinois Timber Buyers
Licensing Act—Is Not A Penal Statute. ............................ 8
IV. The Two Regulations Cited In The Relevant Charges
Do Not Describe An “Offense.” ............................................ 9
V. A Purported Penalty Provisions Adopted By The
Illinois Department of Natural Resources In The
Illinois Administrative Code Does Not Obviate The
Criminal Code, Code of Criminal Procedure, and
Illinois Constitution.................................................................10
VI. Even If A Regulation Can Serve As The Criminal
Law Pled In An Information, Section 1535.1(b) Is
Not A Criminal Regulation.................................15
CONCLUSION .......................................................... 18
APPENDIX.................................................................1a

v
I.

Order of The Illinois Supreme Court
Edwards v. Atterberry, 2019 IL 125337.
(Filed October 31, 2019)...................................1a
II.
Dissent of The Illinois Supreme Court
Edwards v. Atterberry, 2019 IL 125337.
(Filed October 31, 2019)....................................2a
III. Order of The Illinois Supreme Court
Edwards v. Atterberry, 2019 IL 125337.
(Filed October 29, 2019)...................................3a
IV. Opinion of The Illinois Supreme Court
Edwards v. Atterberry, 2019 IL 123370
(Filed February 22, 2019)..........................4a-23a

vi
TABLE OF AUTHORITIES
Cases
Page(s)
Belleville Toyota, Inc. v. Toyota Motor Sales,
U.S.A., Inc., 199 Ill. 2d 325 (2002)............................14
In re Luis R., 239 Ill. 2d 295 (2010)....……………….14
Johnson v. United States, 805 F.2d 1284
(7th Cir. 1986)..............................................................5
People ex rel. Kelley v. Frye, 41 Ill. 2d 287
(1968)……..................…………………………………..15
People v. Devine, 295 Ill. App. 3d 537
(1st Dist. 1998)……….……………………..........……..13
People v. Edge, 406 Ill. 490 (1950)…………......……..5
People v. Fearon, 85 Ill. App. 3d 1087
(1st Dist. 1980)……......................................................6
People v. Fore, 384 Ill. 455 (1943)…........………......15
People v. Gilmore, 63 Ill. 2d 23 (1976)....………14, 15
People v. Greene, 92 Ill. App. 2d 201
(1st Dist. 1968).………...............................................15
People v. Gurell, 98 Ill.2d 194 (1983).……….....….....6
People v. Harris, 394 Ill. 325 (1946)...........................5

vii

Cases—Continued

Page(s)

People v. Kayer, 2013 IL App (4th) 120028..……13, 14
People v. McCarty, 94 Ill. 2d 28 (1983)……....……..13
People v. Minto, 318 Ill. 293 (1925).………...….……15
People v. Williams, 239 Ill.2d 119 (2010).……...…….7
State v. Chvala, 271 Wis. 2d 115 (2004)………….7, 16
Tiplick v. State of Indiana, 43 N.E.3d 1259
(Ind. 2015)…...........................................................7, 16
United States v. Alghazouli, 517 F.3d 1179
(9th Cir. 2008).......................................………………16
United States v. Eaton, 144 U.S. 677 (1892).….16, 17
United States v. Izurieta, 710 F.3d 1176
(11th Cir. 2013)….................................................15, 16
Illinois Statue and Administrative Rules:
225 ILCS 735/3…………………………………........9, 10
225 ILCS 735/5.............................................................1
225 ILCS 735/10…………………….............2-4, 8, 9, 12
225 ILCS 735/11(a-5)…………………........…………..10
625 ILCS 5/6-303……………………......……………….6

viii
720 ILCS 5/1-3………………………....………....7, 9, 11
720 ILCS 5/1-5………………….....................………….8
720 ILCS 5/2-12……………......………..........7-9, 11, 13
720 ILCS 5/2-22……………....………….......…...8, 9, 11
720 ILCS 5/33-3(a)………......…………………………..7
725 ILCS 5/102-15………………………...…...…8, 9, 11
725 ILCS 5/111-3……………………………..........13, 17
17 Ill. Adm. Code 1535.1(b)………1-4, 9, 10, 12, 15-17
17 Ill. Adm. Code 1535.60(a) …………….…....2, 10-12
Illinois Constitutional Provisions
IL CONST. of 1970, Art. VI, § 9……..….......................7, 11, 13, 14
Administrative Materials
92 Ill. Reg. 8499-8502...................................................16

1

PETITION FOR A WRIT OF CERTIORARI
OPINIONS BELOW

The Order of the Illinois Supreme Court (App. 1a) is
denying Petitioner’s Motion for Supervisory Order without
explanation is included at App. 1a.
JURISDICTION

The Illinois Supreme Court entered its Order on October 31, 2019, denying Petitioner’s Motion for Supervisory
Order. (App. 1a.) The jurisdiction of this Court is invoked
under 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISIONS INVOLVED

This case involves the Fourteenth Amendment to the
United States Constitution, which provides, in relevant
part, “No state shall . . . deprive any person of . . . liberty . . .
without due process of law.”
STATEMENT OF THE CASE

Petitioner Kenin Edwards is charged in Schuyler
County, Illinois, with two counts of purported criminal violations of administrative rules. A jury returned guilty verdicts on both counts. The Circuit Court has not yet entered
judgment on the verdicts.
Prior to trial, Mr. Edwards filed numerous pre-trial
motions, including motions to dismiss. The first motion to
dismiss attacked the State’s initial Information on the basis
of, inter alia, purporting to allege a violation of a criminal
statute (225 ILCS 735/5) without alleging any facts that
fell within the ambit of that statute.
After Mr. Edwards’ first motion to dismiss was filed,
the State sought and obtained leave to amend the Information. In the Amended Information, all citations to 225
ILCS 735/5 were eliminated. In their place, the State
merely cited administrative regulations (17 Ill. Adm. Code

2
1535.1(b) and 17 Ill. Adm. Code 1535.60(a)), together with
a purported rules-enabling statute that does not create a
crime, namely, 225 ILCS 735/10, which provides that
“[t]he Department may make such rules and regulations as
may be necessary to carry out the provisions of this Act.”
In response to the amendment, Mr. Edwards again
filed numerous pre-trial motions, including motions to dismiss alleging, inter alia, the Circuit Court’s lack of jurisdiction to adjudicate a criminal trial based upon regulations
alone.
On January 23, 2017, Mr. Edwards filed a motion to
dismiss the Amended Information and a supporting memorandum. Among other things, Mr. Edwards argued that
17 Ill. Adm. Rule 1535.1(b) is not a criminal offense. Respondent Honorable Scott J. Butler denied Mr. Edwards’
motion but gave the State leave to amend the Amended Information until May 1, 2017. The State filed no such
amendment on or before May 1, 2017.
On August 14, 2017, Mr. Edwards filed a Motion to Dismiss the Second Amended Information. Once again, Mr.
Edwards contended, inter alia, that the trial court lacked
subject-matter jurisdiction. Respondent Honorable Scott J.
Butler denied the motion.
On October 10, 2017, Mr. Edwards filed a Supplement1
to Objection to Lack of Re-Arraignment, Lack of Plea, Lack
of Furnishing Copy of Second Amended Information to Defendant and Demand for Same. He argued, among other
things, that the “Offense Table Code” prepared by the Administrative Office of the Illinois Courts does not list Section 10 of the Timber Buyers Licensing Act as a criminal
offense. Respondent Honorable Scott J. Butler denied this
objection and supplement as being moot.

1

An objection had been filed previously.

3
During trial, at the close of the State’s case, Mr. Edwards filed a Motion for Directed Verdict. Therein, he renewed all relevant prior motions and arguments. Respondent Honorable Michael L. Atterberry denied the motion.
To repeat, the State characterized the purported offenses in this case is “Unlawfully Acting as a Timber Buying
Agent for Multiple Licensed Timber Buyers” in each version of a charging instrument—the latest of which was
read verbatim to the jury at the beginning of trial. No such
offense or charge is defined in either the Timber Buyers Licensing Act (225 ILCS 735/et seq.) or in Section 1535.1 of
the administrative rules. The State apparently surmised
this point toward the end of the trial. Then, during a juryinstruction conference, the State for the first time argued
that the purported offenses should be called “Buying Timber without a License,” since this is the moniker set forth
in 17 Ill. Adm. Code 1535.1(b). No such description or elements appear in Section 10 of the Timber Buyers Licensing
Act. The Second Amended Information was not amended
to include this last-state change; the prosecution never requested leave to amend the charge. Mr. Edwards was never
re-arraigned or asked to plead to the new description or
elements set forth in jury instructions.
On February 15, 2018, after numerous jury instructions were given over Mr. Edwards’ objection, he was found
guilty on both counts by the jury—by the same jurors who
heard the statement of the case, before trial, describing an
alleged offense of “unlawfully acting as a timber buying
agent for multiple licensed timber buyers.” There is no
good label for this turnabout without using the word
“switcheroo”. The Amended Information alleged, and the
jury was read as the statement of the case, that Mr. Edwards was charged with “Unlawfully Acting as a Timber
Buying Agent for Multiple Licensed Timber Buyers,” in violation of Section 10 and administrative rules, then came

4
the “switcheroo” of the jury being instructed (supposedly)
under Ill. Adm. Code 1535.1(b), not Section 10, for the alleged offense of “Buying Timber without a Timber Buyer’s
License.” One cannot get a timber buyer’s license in one’s
own name if one is listed as an authorized buyer on another person’s license. The switcheroo thus evolved into
an impossible suggestion that Mr. Edwards should have obtained a license himself; that is not possible while having
the status of being a non-licensee who is listed on the license of a licensee (such as licensee Trent Copelen).
After the verdict was announced, Respondent Honorable Michael L. Atterberry entered an order stating that
“the jury finds defendant guilty of [Count]I and [Count] II”
and set the matter for a post-trial motion and sentencing
hearing.
Petitioner subsequently filed a Motion for Supervisory
Order and Complaint for Writ of Prohibition in the Supreme Court of Illinois. The Illinois Supreme Court denied
Petitioner’s Motion for Supervisory Order but allowed Petitioner leave to file a complaint for writ of prohibition.
The Illinois Supreme Court stayed further proceedings in
the circuit court pending disposition of the petition for
writ of prohibition.
After full briefing schedule and oral argument, a fourjustice majority of the Illinois Supreme Court denied Petitioner’s Complaint for Writ of Prohibition without determining whether the Circuit Court, below, had proper subject matter jurisdiction over Petitioner. Rather, the majority found that Petitioner possessed an adequate remedy at
law in that Petitioner had posttrial motions pending in the
criminal case, and, in the event said posttrial motions were
denied, Petitioner could proceed through the normal appellate process.
Three dissenting Justices of the Illinois Supreme Court
disagreed with the majority’s decision to refrain from affording Mr. Edwards relief. After exploring the merits of Mr.

5
Edwards’ Petition, the dissenting Justices observed that Mr.
Edwards had been prosecuted for and convicted of a nonexistent regulatory offense.
Mr. Edwards then filed a motion for supervisory order
contending that imposing sentence for a violation of a nonexistent regulatory offense violated principals of due process and, for all intents and purposes, federal criminal law.
The motion for supervisory order was denied by a fourJustice majority of the Illinois Supreme Court.
REASONS THE PETITION SHOULD BE GRANTED
I.

The Decision Below Violates Petitioner’s Due Process
Rights Because it Fails to Address Whether Jurisdiction
Existed, Thereby Forcing Defendant to Risk Conviction
and Sentence, and Appeal, in Order to Establish That
Jurisdiction Never Existed.

“To punish a person criminally for an act that is not a
crime would seem the quintessence of denying due process of law . . . .” Johnson v. United States, 805 F.2d 1284,
1288 (7th Cir. 1986). “To give a court jurisdiction in a criminal case, it is essential that the indictment or information
charge the accused with a crime.” People v. Edge, 406 Ill.
490, 493, 94 N.E.2d 359, 361 (1950). “[B]efore a conviction
may be sustained, there must be an indictment or information which charges a crime. This is jurisdictional . . . .”
People v. Harris, 394 Ill. 325, 327, 68 N.E.2d 728, 729
(1946).
This case is an experiment by the Illinois Department
of Natural Resources (“IDNR”) and Respondent Ramon Escapa, the Schuyler County State’s Attorney. In the history
of United States and Illinois criminal law, to the undersigned’s knowledge, there has never been any reported decision allowing a jury verdict, criminal finding of guilt, or
sentence based solely upon an alleged violation of an

6
administrative rule. Yet, here, the IDNR and State’s Attorney seek to establish authority to do just that: to begin applying the penal force of criminal law to mere administrative regulations, without invoking or charging any statutory or constitutional authorization for doing so.
Historically, criminal law has permitted some references to administrative facts or rules as results or attendant circumstances, but in each such instance, there is
a statute that is alleged to be violated, not just an allegedlycriminal violation of an administrative regulation or a
rules-enabling statute.
For example, in People v. Gurell, 98 Ill.2d 194 (1983),
the statute provided that no person shall “[i]ntentionally
fail to correct or interfere with the correction of [certain
plans established pursuant to administrative rules].” Id. at
200-201. The defendants were charged with violating the
statute, stemming from violations of regulations. Id. at
199, 202. The Illinois Supreme Court found that the alleged conduct not only violated a regulation, but also a
statute: “Civil penalties may be imposed for the original
violation. [Citations omitted.] However, criminal penalties
are not imposed for the original violation.” Id. at 208.
Similarly, in People v. Fearon, 85 Ill. App. 3d 1087, 1088
(1st Dist. 1980), a defendant was charged with violating
Section 5 of the Illinois Bingo License and Tax Act, which
provided that any person who “willfully violates any rule
or regulation of the Department is guilty of a misdemeanor.” Again, a violation of a statute was alleged; the
crime was a violation of a statute, not a violation of a rule,
even though a regulation was involved.
There are many other examples of criminal statutes
based in whole or in part on administrative rules. For instance, there is a statute which prohibits the conduct of
driving a motor vehicle coupled with the attendant circumstance of a license that has been administratively revoked.
See, e.g., 625 ILCS 5/6-303. Another example would be

7
prosecutions under the official misconduct statute (720
ILCS 5/33-3(a)), which are brought as violations of the
statute, but which can involve proof of a violation of a rule
or regulation, if the rule or regulation may be said to be a
“law.” People v. Williams, 239 Ill.2d 119 (2010).
In these cases, a criminal statute is charged, and such
statute prescribes the prohibited conduct and any attendant circumstances that are part of the prosecution’s
burden of proof. In these cases, in Illinois and sister states,
a defendant does not face prosecution for violating a rule;
rather, a defendant faces criminal prosecution because he
or she allegedly violated a statute. State v. Chvala, 271
Wis.2d 115, 148-149 (2004). As succinctly noted by the
Supreme Court of Indiana in Tiplick v. State of Indiana, 43
N.E.3d 1259, 1269 (2015), “disobedience [is] in violation
of the statute, and not a rule of the ministerial board.” In
contrast, this case does not charge a criminal statute; it
charges a regulation. The United States Supreme Court
should put an end to this experiment.
The norm is (and always has been) that Circuit Courts
have jurisdiction over justiciable matters involving alleged
crimes based on conduct described in a “statute”. See IL
Const. of 1970, Art. VI, § 9 (conferring jurisdiction to Circuit Courts only as to “all justiciable matters”). Without a
statute, there can be no crime. Without a statute, there can
be no justiciability.
II.

The Criminal Code does not permit criminal charges
based upon regulations alone.

Section 1-3 of the Illinois Criminal Code provides that
“[n]o conduct constitutes an offense unless it is described
as an offense in this Code or in another statute of this
State.” 720 ILCS 5/1-3. (Emphasis added). Similarly, Section 2-12 defines an “offense” as a “violation of any penal

8
statute.” 720 ILCS 5/2-12 (emphasis added); see also 725
ILCS 5/102-15.
The term “statute” is also defined. It means “the Constitution or an Act of the General Assembly of this State.”
720 ILCS 5/2-22. An administrative rule, of course, is neither the Constitution nor an Act of the General Assembly.
Rather, it is a regulatory creature of the executive branch.
Thus, a regulation alone does not invoke the provisions of
the Illinois Criminal Code (or the constitutional requirement of justiciability). In other words, there can be no subject-matter jurisdiction over an alleged criminal proceeding charging solely a regulatory violation, inasmuch as this
does not fit within the definition of an “offense” set forth in
the Criminal Code. Nor does it otherwise constitute a justiciable matter under the Illinois Constitution, as further
discussed below.
Notably, Section 1-5 of the Criminal Code, which is entitled “State criminal jurisdiction,” limits the trial court’s
subject-matter jurisdiction in criminal cases to matters involving an “offense.” 720 ILCS 5/1-5. In other words, an
administrative regulation cannot create an offense, and
without an offense, there can be no criminal jurisdiction.
III. The only statute cited by the State in the relevant
charges—Section 10 of the Illinois Timber Buyers
Licensing Act—is not a penal statute.

Here, in the Amended Information, the State cited one
statute: Section 10 of the Timber Buyers Licensing Act.
See 225 ILCS 735/10. However, this does not invoke jurisdiction or justiciability according to the Illinois Constitution, the Illinois Criminal Code, or the Code of Criminal Procedure. This is because the statute does not describe a
crime; it is not penal in nature.

9
Section 10 states in its laconic entirety that “[t]he Department may make such rules and regulations as may be
necessary to carry out the provisions of this Act.” 225 ILCS
735/10. This statute does not fit within the definition of
an “offense” and certainly does not, in any event, apply to
private, non-IDNR persons such as Mr. Edwards who are
not capable of violating Section 10 by, for example, not
making rules and regulations. Rather, this statute merely
allows the IDNR to make rules and regulations. Nor is it
penal. Rather, it is a rules-enabling statute which purports
to authorize rulemaking by the IDNR. By its terms, Section
10 confers power on an agency to make rules, not power
on an individual citizen or a court or a State’s Attorney.
Thus, Section 10, as pled in the Amended Information, cannot be viewed as describing conduct which constitutes an
offense within the meaning of 720 ILCS 5/1-3, 720 ILCS
5/2-22, 720 ILCS 5/2-12, or 725 ILCS 5/102-15. In fact,
Section 10 of the Illinois Timber Buyers Licensing Act is
not even on the Criminal Offenses Table of the Administrative Office of Illinois Courts (“AOIC”).
IV. The Two Regulations Cited In The Relevant Charges Do
Not Describe An “Offense.”

Each of the two administrative rules referenced in
the Amended Information are codified in Title 17, Part
1535, of the Illinois Administrative Code. One such rule is
17 Ill. Adm. Code 1535.1(b). This rule describes itself as
creating a provision, non-compliance with which constitutes “buying timber without a timber buyer’s license.”
Section 1535.1(b) only on the surface resembles what is
provided in a non-pleaded statute, namely, Section 3 of the
Timber Buyers Licensing Act (225 ILCS 735/3), which requires a person to obtain a license before engaging in the
business of timber buyer. (Section 3 does not address the
topic of agents or listed persons, such as Mr. Edwards.) A

10
violation of Section 3 is a Class A misdemeanor pursuant
to Section 11(a-5) (225 ILCS 735/11(a-5)). Section 3 appears to require licensure, as it governs those who should
be licensed, while Section 1535.1(b) is geared more towards whom a licensee may list as agents (who are not
themselves licensed). Here, as alleged in all versions of the
Information filed in the Circuit Court, Mr. Edwards was a
listed agent for a timber buyer, not himself a licensee, at all
relevant times.
V.

A Purported Penalty Provision Adopted By The Illinois
Department of Natural Resources in the Illinois
Administrative Code Does Not Obviate The Criminal
Code, Code of Criminal Procedure, and Illinois
Constitution.

The second administrative rule alleged in the
Amended Information is 17 Ill. Adm. Code 1535.60(a),
which provides as follows:
Any person violating the provisions of this
Part shall, upon finding of guilt by a court
of law, be Subject to statutory penalties as
prescribed by the Timber Buyers Licensing Act [225 ILCS] and to revocation of license and suspension of privileges, as set
out in the Timber Buyers Licensing Act.
The above-quoted language references a person
violating “the provisions of this Part.” In this context,
the term “Part” refers to Part 1535 of Title 17. The
“Part” is not a statute; it is a grouping of rules or regulations in the Illinois Administrative Code. The
above-quoted language from Section 1535.60(a) presupposes that a Circuit Court could enter a “finding of

11
guilt” for a violation of the provisions of Part 1535.
The notion, in this regulation, that a Circuit Court
could enter a “finding of guilt” for an alleged violation
of an administrative rule, is problematic for several
reasons. First, a violation of the provisions of Part
1535 would not constitute an “offense” under 720
ILCS 5/1-3, 720 ILCS 5/2-12, 720 ILCS 5/2-22, or 725
ILCS 5/102-15, because Part 1535 is not a “statute.”
Second, the IDNR has no authority to confer jurisdiction on a Circuit Court. Third, the role of Circuit
Courts is defined in Article VI, Section 9 of the Illinois
Constitution as follows:
SECTION 9. CIRCUIT COURTS-JURISDICTION
Circuit Courts shall have original jurisdiction of all justiciable matters except
when the Supreme Court has original
and exclusive jurisdiction relating to
redistricting of the General Assembly
and to the ability of the Governor to
serve or resume office. Circuit Courts
shall have such power to review administrative action as provided by law.
The Constitution provides for Circuit Courts to “review administrative action as provided by law.” The Constitution does not provide original jurisdiction to adjudicate alleged violations of administrative rules as crimes.
In short, Section 1535.60(a) cannot confer jurisdiction on a Circuit Court to enter findings of guilt for alleged
violations of the IDNR’s rules in Part 1535. In Section
1535.60 (a), the Department cannot create a crime out of
every administrative rule in Part 1535, because Part 1535

12
is not a “statute.” Although prosecutions of statutory
crimes are “justiciable matters,” administrative rule violations as non-crimes are not “justiciable matters” for exercising the original jurisdiction of a Circuit Court in a criminal case, even if the Constitution grants to Circuit Courts
the power to “review” administrative actions as provided
by law.
Here, the point is, this purported criminal case is
based upon two administrative rules (§§ 1535.1(b) and
1535.60 (a)) and one rules-enabling statute (225 ILCS
735/10), none of which constitutes a penal statute. This is
why the Illinois Supreme Court should have issued a supervisory order, to put an end to this experimental prosecution, because a criminal prosecution of allegedly violating
an administrative rule is both peculiar and wrong. Due to
the novelty and importance of this experimental prosecution, it is hereby suggested that this Court request oral argument.
In the instant case, if the prosecutorial experiment
is allowed to proceed based solely on alleged violations of
an administrative rule, the criminal justice system will be
extended well beyond its intended ambit. State agencies
will pester prosecutors to charge violations of their administrative rules rather than charging violations of statutes.
Non-justiciable matters will occupy the courts’ scarce resources, when those resources should be devoted to justiciable matters. One can only imagine the Administrative
Office of Illinois Courts needing to expand its “Criminal Offenses Table” to incorporate a multitude of regulations
contained in the Illinois Administrative Code. Plus, there
would presumably be a need either to (1) as here, craft
non-pattern instructions or (2) task a committee to prepare pattern instructions for a multitude of regulations, for
use in criminal cases. There is good cause for this Court to
rule that without a criminal statute being pled in an

13
Information or Indictment, jurisdiction in a criminal case
is lacking.2
The Circuit Court has no “justiciable matter” before
it and as such lacks subject-matter jurisdiction; all previous orders entered by the Circuit Court, after an Amended
Information was filed alleging only administrative rules,
were in excess of its jurisdictional and inherent authority.
The Illinois Supreme Court has held that:
There can be no doubt that jurisdiction is
lacking where the circumstances alleged
do not constitute the offense charges as it
is defined in the statute and nothing short
of alleging entirely different facts could
cure the defect.***A conviction entered in
such a case exceeds the statutory and constitutional authority which determine the
subject matter jurisdiction of a court in a
criminal case.
People v. McCarty, 94 Ill. 2d 28, 38 (1983); see also People v.
Devine, 295 Ill. App. 3d 537, 543 (1st Dist. 1998)(“To vest a
court with jurisdiction in a criminal case, the information
must charge the accused with a crime.”)3 Lastly, the circuit
court is without jurisdiction to enter a conviction against a
Mr. Edwards’ counsel has researched authority concerning 725
ILCS 5/111-3(a)(2) and was unable to locate any authority concerning jurisdiction and the State’s failure to cite a statutory provision in
an information or indictment. However, Ill. Const. 1970, art. VI, sec.
9 refers to all “justiciable matters,” and 725 ILCS 5/111-3 provides
that a person may be subject to prosecution in this State for an “offense.” As noted earlier, “offense” means a violation of any penal statute of this State” 720 ILCS 5/2-12. No statute, no offense. No offense,
no jurisdiction.
2

This authority was cited to the circuit court in Mr. Edwards’ Memorandum in Support of Motion to Dismiss, filed on June 28, 2016.
3

14
defendant based upon actions that do not constitute a
criminal offense. People v. Kayer, 2013 IL App (4th) 120028,
¶.
The Illinois Supreme Court addressed the implications of the constitutional requirement of a “justiciable
matter” in Belleville Toyota, Inc. v. Toyota Motor Sales, U.S.A.,
Inc., 199 Ill. 2d 325 (2002), as follows:
Our current constitution does not define
the term “justiciable matters,” nor did our
former constitution, in which this term
first appeared. Generally speaking, a “justiciable matter” is a controversy appropriate for review by the court, in that it is definite and concrete, as opposed to hypothetical or moot, touching upon legal relations
of parties having adverse legal interests.
Id. At 335 (internal citations omitted). The term “justiciable” has been defined as “(of a case or paper) brought before a court of justice; capable of being disposed of judicially.” Blacks Law Dict. 9th Ed. The circuit court’s authority
to adjudicate a justiciable matter derives exclusively from
the state constitution. In re Luis R., 239 Ill. 2d 295, 304
(2010).
In In re Luis R., the Illinois Supreme Court determined
the issue of jurisdiction by looking to “whether the alleged
claim falls within the general class of cases that the court
has the inherent power to hear and determine.” Id. At 301.
Under Article VI, Section 9 of the Illinois Constitution, administrative actions are matters for review by circuit
courts, not adjudication by circuit courts, in the original instance. Thus, adjudication of administrative actions alone
is not within the class of cases that are justiciable. The circuit courts have jurisdiction in all cases involving criminal

15
offenses which fall within the ambit of Section 1-5 of the
Criminal Code. People v. Gilmore, 63 Ill. 2d 23, 26-27
(1976). However, “[t]he trial court is not authorized to
convict a person who has not been charged with a violation
of the criminal law.” People v. Greene, 92 Ill. App. 2d 201,
204 (1st Dist. 1968) (emphasis added), citing People v.
Minto, 318 Ill. 293 (1925). In the absence of an accusation
charging a defendant with a violation of the criminal law, a
charge is void on its face, the trial court has no jurisdiction
or authority to convict, and the defendant cannot by waiver
or consent confer such jurisdiction or authority. People v.
Fore, 384 Ill. 455, 458 (1943); Minto, 318 Ill. At 295-297.
As such, it does not confer jurisdiction upon a court. People
ex rel. Kelley v. Frye, 41 Ill. 2d 287, 290 (1968) (writ of habeas corpus denied because indictment was not void due to
lack of signature by grand-jury foreperson, such that there
was subject-matter jurisdiction).
VI. Even If A Regulation Can Serve As The Criminal Law
Pled In An Information, Section 1535.1(b) Is Not A
Criminal Regulation.

Even assuming solely for the sake of argument that a
provision of an administrative rule (not a statue) could be
pled as the criminal law upon which a prosecution in Illinois is based, Section 1535.1 could not be considered to be
a criminal law.
Section 1535.1 was not adopted to be a criminal provision. In United States v. Izurieta, 710 F.3d 1176 (11th Cir.
2013), the court predicated its ruling to vacate the criminal
conviction of a food importer based on an examination of
the true nature of the regulation in question and opted for
lenity. This is especially appropriate in cases where, as
here, "a regulation giving rise to what would appear to be
civil remedies is said to be converted into a criminal law."
See id. at 1182. In vacating the defendant's criminal

16
conviction in Izurieta, the court held that the text of the
regulation at issue was civil in nature, setting forth contractual terms between an importer and U.S. Customs. Id.
at 1184. The Izurieta court, therefore, evaluated the true
nature of the regulation in question and opted for lenity
where, as here, ''a regulation giving rise to what would appear to be civil remedies is said to be converted into a criminal law." Id. at 1181-82. The Izurieta court found a lack of
subject-matter jurisdiction before the trial court in that
case because "the indictment did not adequately set forth
a violation of criminal law, and subject matter jurisdiction
does not exist." Id. at 1185.
Here, to determine the true nature of the regulation
in question, this Court can examine the regulatory history
leading up to what the IDNR added as 17 Ill. Adm. Code
1535.1 et seq. in a ''New Section" on May 26, 1992. Specifically, the IDNR published in the Illinois Register at 92 Ill.
Reg. 8499-8502 the “Summary and Purpose" of the regulation i.e., the Agency's administrative purpose of 17 Ill. Admin. Code 1535.1. In this publication, the IDNR stated:
"Section 1535.1 is being added to outline the Timber Buyer's License application procedures" (emphasis added).
Notably, there is no statement of intent to create a crime or
to otherwise apply the regulation to agents of licensed timber buyers, rather than only apply to licensed timber buyers and timber buyer license applicants themselves.
Courts in other jurisdictions have found that only statutes—not merely regulations—provided what is a crime
including the elements thereof. See, e.g., Chvala, 271 Wis.
2d at 148, 149; Tiplick, 43 N.E. 3d at 1269 (2015); United
States v. Alghazouli, 517 F.3d 1179, 1187-88 (9th Cir. 2008)
(finding a statute is required in order to criminalize a violation of a regulation); United States v. Eaton, 144 U.S. 677,
687-88 (1892) (holding that regulatory requirement imposed by Commissioner of Internal Revenue could not
form the basis of a crime under a statute penalizing failure

17
to do a thing "required by law"). In other words, here, 17
Ill. Adm. Code 1535.1 is not, and was not intended to be, a
criminal rule. It cannot form the basis of a criminal prosecution.
Here, the State lacked the ability to prosecute an unknown or unrecognizable criminal offense of ''Unlawfully
Acting As A Timber Buying Agent For Multiple Licensed
Timber Buyer." Evidence of this fact is the State's inability
to cite a criminal statute that Mr. Edwards purportedly violated. Therefore, the circuit court lacks the ability to enter
any valid disposition or other order when no statute proscribed the alleged criminal offenses charged by the State.
Nullum crimen sine lege ("no crime without law") is a
principle in criminal law that a person cannot and should
not face criminal punishment except for an act that was
criminalized by law before he or she performed the act.
Here, Defendant's convictions are based solely on 17
Ill. Adm. Rule 1535.l(b), which is civil in nature and not
criminal in nature. Because the State has presented a
charge to the circuit court that is fatally defective on its face
for failure to cite any criminal statutory provision that Mr.
Edwards purportedly violated (and for not adhering to
strict compliance in charging a criminal offense as required in, e.g., 725 ILCS 5/111-3), the circuit court did not
and does not have subject-matter jurisdiction. Accordingly, the Illinois Supreme Court should have granted Petitioner’s motion for supervisory order.

18
CONCLUSION

The Court should grant the petition for a writ of certiorari and schedule this case for briefing and oral argument.
Respectfully submitted.
ROBERT J. HANAUER
Counsel of Record
PATRICK T. SHEETS

456 Fulton Street, Suite 200
Peoria, IL 61602
(309) 966-4423
rob@hanauerlaw.com

JANUARY 29, 2020

1a
APPENDIX
Supreme Court of Illinois
KENIN L. EDWARDS, Movant,
v.

(Case No. 125337)

HONORABLE MICHAEL L. ATTERBERRY et al., Respondents.
Filed October 31, 2019.
JUSTICE KILBRIDE, dissenting from denial of motion for a
supervisory order:
¶1
In accordance with my dissent in Edwards v. Atterberry, 2019 IL 123370, I dissent from the court’s denial of
the instant motion. I continue to believe that Edwards is
entitled to supervisory relief from this court directing the
circuit court to vacate his criminal convictions of a nonexistent regulatory offense.
¶2
CHIEF JUSTICE BURKE and JUSTICE NEVILLE join
in this dissent.

2a
Supreme Court of Illinois
KENIN L. EDWARDS, Movant,
v.

(Case No. 125337)

HONORABLE MICHAEL L. ATTERBERRY et al., Respondents.
Filed October 31, 2019.
Motion by Movant for a supervisory order. Denied. Dissent attached. Order entered by the Court.

3a
Supreme Court of Illinois
KENIN L. EDWARDS, Petitioner,
v.

(Case No. 123370)

HONORABLE MICHAEL L. ATTERBERRY, in his official Capacity as Circuit Judge, Respondent.
Opinion filed February 22, 2019.
Rehearing denied May 20, 2019.
Attorneys and Law Firms
Robert J. Hanauer, of Hanauer Law Office, LLC, of Peoria, for
petitioner.
Lisa Madigan, Attorney General, of Springfield (David L.
Franklin, Solicitor General, and Michael M. Glick, Daniel B.
Lewin, and Joshua M. Schneider, Assistant Attorneys General, of Chicago, of counsel), for respondents.
OPINION
JUSTICE GARMAN delivered the judgment of the court,
with opinion.
¶ 1 This is an original action for a writ of prohibition. Petitioner Kenin L. Edwards asks this court to issue an order to
prohibit respondent Judge Michael L. Atterberry from

4a
conducting a sentencing hearing or any other action in the
underlying criminal case.
¶ 2 BACKGROUND
¶ 3 Edwards was charged by information with two violations of the Timber Buyers Licensing Act (225 ILCS 735/1
et seq. (West 2016) ). The information referred to each of
these violations as constituting a Class A misdemeanor,
which Edwards disputes. Edwards filed several pretrial
motions, including motions to dismiss that, relevant here,
contested the circuit court's subject-matter jurisdiction.
The State was twice allowed to amend the information. The
pertinent version of the information set forth the following
counts. Count I charged Edwards with
the offense of UNLAWFULLY ACTING AS A
TIMBER BUYING AGENT FOR MULTIPLE
LICENSED TIMBER BUYERS, in violation of
SECTION 10 of ACT 735 of CHAPTER 225
of the Illinois Compiled Statutes of said
State and Administrative Rule SECTION
1535.1(b) of PART 1535 of SUB-CHAPTER
d of CHPATER [sic ] I of TITLE 17, pursuant
to SECTION 1535.60(a) of PART 1535 of
SUB-CHAPTER d of CHAPTER I of TITLE
17, in that the said defendant knowingly[1]
acted as an authorized agent for multiple
licensed timber buyers, being listed as an
agent for timber buyer Trent Copelen and
acted as agent for timber buyer Jonathan
Luckett and represented himself as a
1 The

word “knowingly” was added by a handwritten addition in the
right margin, dated “7-31-17” and initialed by State's Attorney Ramon M. Escapa.

5a
timber buyer when attempting to enter
into an agreement with Donald Cook.
Class A Misdemeanor
Count II charged Edwards with:
the offense of UNLAWFULLY ACTING AS A
TIMBER BUYING AGENT FOR MULTIPLE
LICENSED TIMBER BUYERS, in violation of
SECTION 10 of ACT 735 of CHAPTER 225
of the Illinois Compiled Statutes of said
State and Administrative Rule SECTION
1535.1(b) of PART 1535 of SUB-CHAPTER
d of CHPATER[sic ] I of TITLE 17, pursuant
to SECTION 1535.60(a) of PART 1535 of
SUB-CHAPTER d of CHAPTER I of TITLE
17, in that the said defendant knowingly[2]
acted as an authorized agent for multiple
licensed timber buyers, being listed as an
agent for timber buyer Trent Copelen and
acted as an agent for timber buyer Jonathan Luckett in selling timber to Leroy
Yoder of Plainview Pallet, Tom Farris of
Farris Forest Products, John Peters of River
City Hardwood, Inc., Norman Hochstetler
of Oak Ridge Lumber, LLC, and Michael
Eichen of Eichen Lumber Company, Inc.

As with count I, “knowingly” was added by hand, dated “7-31-17,”
and initialed by State's Attorney Ramon M. Escapa.
2

6a
Class A Misdemeanor
A jury found Edwards guilty of both counts.
¶ 4 Thereafter, Edwards filed a motion for a supervisory
order and for leave to file a complaint for a writ of prohibition. See Ill. S. Ct. Rs. 383, 381 (eff. July 1, 2017). This court
denied the motion for a supervisory order but allowed Edwards leave to file a complaint for a writ of prohibition.
Pending disposition of the complaint, this court stayed the
circuit court case.
¶ 5 ANALYSIS
¶ 6 Edwards seeks to prohibit respondent, Judge Michael
L. Atterberry, from conducting a sentencing hearing or
from taking any other action in the underlying criminal
case.3 Edwards claims that, because the information
charged him with violating regulations and not a statute
defining a criminal offense, the circuit court lacked subjectmatter jurisdiction. Thus, Edwards frames the issue as
whether there is subject-matter jurisdiction in a case alleging a regulatory violation as a crime. We begin by setting
forth the pertinent law and requirements relating to a writ
of prohibition.
¶ 7 Pursuant to article VI, section 4(a), of the Illinois Constitution of 1970, this court may exercise original jurisdiction in cases relating to prohibition. Ill. Const. 1970, art. VI,
Judge Scott J. Butler is also named as a respondent. He apparently
handled pretrial motions before the case was transferred to Judge
Atterberry. Edwards does not specify what exactly he seeks to prohibit Judge Butler from doing. Because respondents' brief was filed
in both names, we will refer to respondents rather than respondent.
3

7a
§ 4(a); People ex rel. Foreman v. Nash, 118 Ill. 2d 90, 96, 112
Ill.Dec. 714, 514 N.E.2d 180 (1987). A writ of prohibition is
an extraordinary remedy. Nash, 118 Ill. 2d at 96, 112
Ill.Dec. 714, 514 N.E.2d 180. “A writ of prohibition lies to
prevent a judge from acting where he has no jurisdiction to
act or to prevent a judicial act which is beyond the scope of
a judge's legitimate jurisdictional authority.” Daley v. Hett,
113 Ill. 2d 75, 80, 99 Ill.Dec. 132, 495 N.E.2d 513 (1986).
¶ 8 A writ of prohibition will not issue unless four requirements are met. Zaabel v. Konetski, 209 Ill. 2d 127, 131-32,
282 Ill.Dec. 748, 807 N.E.2d 372 (2004). First, the action to
be prohibited must be of a judicial or quasi-judicial nature.
Id. at 132, 282 Ill.Dec. 748, 807 N.E.2d 372. Second, the writ
must be directed against a tribunal of inferior jurisdiction.
Id. Third, “the action to be prohibited must be outside the
tribunal's jurisdiction or, if within its jurisdiction, beyond
its legitimate authority.” Id. Fourth, there must not be any
other adequate remedy available to the petitioner. Id. But
see Nash, 118 Ill. 2d at 97, 112 Ill.Dec. 714, 514 N.E.2d 180
(where the issue presented is sufficiently important to the
administration of justice, this court may issue a writ of prohibition even if all of the aforementioned requirements are
not met).
¶ 9 The first and second requirements are not disputed.
The parties do contest the third and fourth requirements.
However, we need only address the fourth requirement,
given the circumstances of this case. See Nash, 118 Ill. 2d
at 95, 112 Ill.Dec. 714, 514 N.E.2d 180 (first examining
whether writs of mandamus or prohibition or supervisory
orders would constitute appropriate remedies in that
case).
¶10 As noted, the fourth requirement needed for a writ of
prohibition is that there must not be any other adequate

8a
remedy available to the petitioner. Zaabel, 209 Ill. 2d at
132, 282 Ill.Dec. 748, 807 N.E.2d 372. Respondents point
out that Edwards filed a timely posttrial motion. Specifically, Edwards filed a combined motion for entry of a judgment notwithstanding the verdict, a motion for a new trial,
and a motion in arrest of judgment, pursuant to sections
116-1 and 116-2 of the Code of Criminal Procedure of
1963. 725 ILCS 5/116-1, 116-2 (West 2016). However, before the circuit court could rule on that motion, Edwards
filed a motion seeking both a supervisory order and leave
to file a complaint for prohibition in this court. We allowed
the motion in part. Specifically, this court denied Edwards's motion for a supervisory order but allowed him
leave to file the complaint for a writ of prohibition. This
court stayed circuit court proceedings pending disposition
of the prohibition action. We now turn to the parties' arguments relating to the fourth requirement for a writ of prohibition.
¶ 11 Edwards argues that no other adequate remedy exists
and that the case could be resolved simply and expeditiously on jurisdictional grounds via a writ of prohibition.
Edwards suggests that it would be futile to await the circuit
court's disposition of his posttrial motion because respondents previously ruled that the circuit court had jurisdiction and, over Edwards's objection, proceeded to trial.
Edwards notes that he could be sentenced to jail. He adds
that suspension or revocation of a timber buyer's license
may occur upon a finding of guilt by a court of law for a
violation of part 1535 of Title 17, Timber Buyer Licensing
and Harvest Fees. 17 Ill. Adm. Code 1535.60 (2003). Edwards represents that the Department of Natural Resources has already initiated proceedings against his license based upon the jury verdict below. He argues that
Zaabel demonstrates that he “would be irremediably
harmed if he were required to press his claim that the

9a
circuit court lacks subject matter jurisdiction within the
normal appellate process.” 209 Ill. 2d at 132, 282 Ill.Dec.
748, 807 N.E.2d 372.
¶ 12 Respondents maintain that Edwards could obtain relief on his posttrial motion or otherwise on appeal. As to
Edwards's asserted reasons for why the normal appellate
process is inadequate, respondents note that potentially
facing the collateral consequences of a conviction pending
appeal is true of every criminal case. Additionally, respondents comment that Edwards does not explain why the potential loss of his license recommends resolving his claims
here instead of in the appellate court. Respondents observe that Edwards might receive probation. See 730 ILCS
5/5-4.5-55(d) (West 2016) (probation may be imposed for
Class A misdemeanors). However, if Edwards is sentenced
to imprisonment, respondents note that, pursuant to Illinois Supreme Court Rule 609 (eff. Feb. 6, 2013), Edwards
may seek a stay of his sentence on appeal. With these arguments in mind, we next briefly discuss a case that reached
this court under somewhat similar circumstances.
¶ 13 In Moore v. Strayhorn, 114 Ill. 2d 538, 540, 104 Ill.Dec.
230, 502 N.E.2d 727 (1986), this court granted the petitioner, Moore, leave to file a complaint for an original writ
of mandamus or prohibition or supervisory order to direct
the circuit judge to vacate the portion of the sentence that
denied him credit for time served. This court concluded
that
“leave to file that petition was improvidently granted because Moore should have been left to his alternative remedy of appealing the sentencing order to our appellate
court. Applications to this court for original actions of
mandamus and prohibition or for supervisory orders

10a
should not be allowed as a way of circumventing the normal appellate process.” Id.
Nonetheless, this court elected to exercise its discretionary
supervisory authority to resolve the matter in light of judicial economy and because Moore's time to appeal had already expired. Id.
¶ 14 As in Moore, we determine that Edwards should have
been left to his alternative remedy—the normal appellate
process. We reject Edwards's argument that he lacks any
other adequate remedy. Indeed, Edwards has a posttrial
motion pending in the circuit court. Even if that motion is
unsuccessful, Edwards could obtain relief on appeal to the
appellate court. Beyond that, Edwards could petition for
leave to appeal to this court. Ill. S. Ct. R. 315 (eff. July 1,
2018). Critically, and unlike in Moore, Edwards's time to
appeal has not expired. Quite simply, the entire extent of
the normal appellate process is yet available to Edwards
should the trial court deny his posttrial motion.
¶ 15 Edwards criticizes the nature of respondents' “what
if?” arguments. As an example, respondents contend that
Edwards may receive probation instead of being imprisoned. However, the fact remains that these uncertainties
exist because Edwards did not await disposition of his
posttrial motion or sentencing prior to his seeking prohibition in this court. We resolutely disapprove of Edwards's
argument that the case could be resolved simply and expeditiously on jurisdictional grounds. Because one route may
be most expeditious does not render an alternative route
inadequate, particularly in the context of an original action
for a writ of prohibition. Original actions of prohibition
may not be used to circumvent the normal appellate process. Nash, 118 Ill. 2d at 97, 112 Ill.Dec. 714, 514 N.E.2d
180. A writ of prohibition is “normally to be awarded only

11a
in rare instances where none of the ordinary remedies is
available or adequate.” (Emphasis added.) Hughes v. Kiley,
67 Ill. 2d 261, 266, 10 Ill.Dec. 247, 367 N.E.2d 700 (1977).
¶ 16 Next, Edwards maintains that, even if he were to utilize the ordinary appellate process and eventually prevail,
he would still sustain irremediable harm because a stay
under Illinois Supreme Court Rule 609 (eff. Feb. 6, 2013)
would not apply to the license revocation proceedings. Edwards contends that his business will falter and his livelihood will be jeopardized if he is jailed or has his license
revoked.
¶ 17 To show that being sentenced to jail does not constitute irremediable harm, respondents cite Hughes, arguing
that prohibition was denied to criminal defendants who
were not yet convicted because they could await conviction and appeal. 67 Ill. 2d at 267-68, 10 Ill.Dec. 247, 367
N.E.2d 700. Edwards asserts that Hughes is inapposite because it concerns a petition for a writ of habeas corpus alleging a due process violation stemming from the way that
a prosecutor allegedly spoke to a grand jury. Id. at 265-66,
10 Ill.Dec. 247, 367 N.E.2d 700. Rather, Hughes involved
three defendant-petitioners. Id. at 264-65, 10 Ill.Dec. 247,
367 N.E.2d 700. Two of the defendant-petitioners petitioned this court for writs of prohibition seeking to prevent
further proceedings in their cases after the trial judge denied their motions to quash their indictments. Id. Defendant-petitioners had argued that their due process rights
had been violated by an assistant state's attorney's conduct before the grand jury. The third defendant-petitioner,
who was charged in a different case, filed a petition for writ
of habeas corpus seeking his discharge and release after
the trial judge denied his motion to quash the indictment.
Id. at 265, 10 Ill.Dec. 247, 367 N.E.2d 700. All three defendant-petitioners argued that they were entitled to the

12a
extraordinary relief of prohibition or habeas corpus because no other remedy existed that did not require them to
suffer extreme hardship prior to its availability. Id. at 266,
10 Ill.Dec. 247, 367 N.E.2d 700.
¶ 18 This court denied the petitions for a writ of prohibition and quashed the writ of habeas corpus. Id. at 268, 10
Ill.Dec. 247, 367 N.E.2d 700. As to the writs of prohibition,
the court noted that prohibition was not an appropriate
remedy because no question of jurisdiction was at issue. Id.
at 267-68, 10 Ill.Dec. 247, 367 N.E.2d 700. However, the
court commented that the trial judge's rulings on the motions to quash the indictments were still subject to direct
review upon conviction. Id. at 268, 10 Ill.Dec. 247, 367
N.E.2d 700. As to the writ of habeas corpus, this court also
commented that the defendant-petitioner's remedy was
instead by means of direct review. Id. Thus, Edwards's attempt to distinguish Hughes fails.
¶ 19 As to Edwards's argument that his business and livelihood will be harmed due to the loss of his timber buyer's
license and delay occasioned by the appellate process, this
argument also falls short. Respondents rightly note that
Edwards is essentially complaining of collateral consequences that may occur pending an appeal. See People v.
Delvillar, 235 Ill. 2d 507, 520, 337 Ill.Dec. 207, 922 N.E.2d
330 (2009) (“[c]ollateral consequences * * * are effects
upon the defendant that the circuit court has no authority
to impose” and that “result[ ] from an action that may or
may not be taken by an agency that the trial court does not
control”). Were we to consider such consequences indicative of irremediable harm, then the normal appellate process would nearly always prove inadequate.
¶ 20 Here, the trial court did not order that Edwards's license be revoked. Instead, the finding of guilt triggered the

13a
collateral consequence of the Department of Natural Resources taking steps to revoke his license. Of note, Edwards
offers only a vague portrayal of the situation surrounding
his timber buyer's license. In Edwards's brief, he represents that he has a timber buyer's license. Respondents'
brief notes that, “[t]hough not of record here, petitioner
appears to have obtained a license after the transactions
below.” In reply, Edwards states that “[r]espondents
properly recognize that petitioner obtained a timber buyer's license after the alleged transactions at issue in the
Schuyler County case.” Then, Edwards declares that the Department of Natural Resources has already initiated and
continued to pursue proceedings against his license. Finally, at oral argument, counsel suggested that this court
take judicial notice “that the IDNR after this court stayed
proceedings in Schuyler County attempted and did for a
period of 92 days suspend Mr. Edwards's since acquired
Timber Buyer's license.”
¶ 21 Putting aside the fact that the license revocation proceeding is an entirely separate matter, Edwards also has
not provided any documentation relating to his licensure
or the license revocation proceedings. This court is left to
guess when exactly Edwards obtained a license; if the Department of Natural Resources had other bases for seeking
suspension or revocation of his license; what effect, if any,
an award of prohibition would have upon the agency proceeding; whether Edwards's license is at present suspended, revoked, reinstated; and the precise status of the
suspension/revocation proceeding. In this circumstance,
without more, Edwards has not demonstrated irremediable harm so as to warrant excusal from the normal appellate process. See Zaabel, 209 Ill. 2d at 132, 282 Ill.Dec. 748,
807 N.E.2d 372 (petitioner has the burden to show that he

14a
would be irremediably harmed).
¶ 22 Still, even if no irremediable harm is apparent, Edwards urges this court to exercise its discretion and consider this action. See id. (although petitioner did not
demonstrate that the normal appellate process would not
provide an adequate remedy, court chose to address the
merits of petitioner's complaint for prohibition because issue was important to the administration of justice); Orenic
v. Illinois State Labor Relations Board, 127 Ill. 2d 453, 468,
130 Ill.Dec. 455, 537 N.E.2d 784 (1989) (“Though mandamus is extraordinary, we may consider a petition for the
writ when it presents an issue that is novel and of crucial
importance to the administration of justice, even if all the
normal requirements for the writ's award are not met initially.”); Moore, 114 Ill. 2d at 540, 104 Ill.Dec. 230, 502
N.E.2d 727 (despite finding the normal appellate process
to be adequate, court exercised its discretion and addressed the merits of Moore's arguments).
¶ 23 In People ex rel. Foreman v. Nash, this court began its
analysis by considering whether writs of mandamus or
prohibition or supervisory orders would be proper remedies in that case. 118 Ill. 2d at 95, 112 Ill.Dec. 714, 514
N.E.2d 180. The court concluded that Moore was controlling and noted that the State had already presented arguments on direct appeal to the appellate court, on petition
for rehearing, and to this court via a petition for leave to
appeal. Id. at 98, 112 Ill.Dec. 714, 514 N.E.2d 180. This
court explained that “[a]n extraordinary remedy such as a
writ of mandamus or a writ of prohibition should not be
used as a substitute for another appeal.” Id. The court did
not consider the questions presented therein to be of such
importance to the administration of justice to require this
court's exercise of its supervisory authority. Id. Thus, the
court concluded that the State's motion was improvidently

15a
granted and did not reach the merits of the parties' arguments. Id.
¶ 24 Similarly, we see no reason to look past Edwards's failure to show that he lacks any other adequate remedy and
nevertheless address the merits of Edwards's complaint.
Unlike in Moore, Edwards's time to appeal has not expired.
See Moore, 114 Ill. 2d at 540, 104 Ill.Dec. 230, 502 N.E.2d
727 (“Our failure to dispose of this action * * * would waste
judicial resources as well as be unjust to Moore, because
his time to appeal has now expired.”). We likewise do not
consider the issue presented to be important to the administration of justice. See Foreman, 118 Ill. 2d at 98, 112
Ill.Dec. 714, 514 N.E.2d 180 (“[W]e do not consider that the
questions as presented here are of such importance to the
administration of justice that they necessitate this court's
exercise of its supervisory authority.”). Accordingly, we refuse to address the merits of the parties' remaining arguments.
¶ 25 CONCLUSION
¶ 26 For a writ of prohibition to issue, a petitioner must
demonstrate that all four of its requirements have been
met. Zaabel, 209 Ill. 2d at 131-32, 282 Ill.Dec. 748, 807
N.E.2d 372. Edwards fails to establish that the normal appellate process would not afford an adequate remedy or
will cause him irremediable harm. We decline to nonetheless address the merits of Edwards's complaint because it

16a
does not present an issue that is important to the administration of justice.
¶ 27 Writ denied.
Chief Justice Karmeier and Justices Thomas and Theis concurred in the judgment and opinion.
Justice Kilbride dissented, with opinion, joined by Justices
Burke and Neville.
DISSENT
¶ 28 JUSTICE KILBRIDE, dissenting:
¶ 29 Petitioner, Kenin L. Edwards, was convicted by a jury
of two counts of the purported crime of “unlawfully acting
as a timber buying agent for multiple licensed timber buyers.” Before the trial court could sentence Edwards, however, this court allowed his petition seeking prohibition relief and stayed sentencing. The crux of Edwards's petition
was that he had been charged, and convicted, of an insufficiently defined regulatory offense. Indeed, a review of the
applicable administrative rule demonstrates that Edwards
has been convicted of an alleged regulatory offense that
does not exist. In addition, his convictions are based on alleged conduct that does not violate the regulation relied on
in the State's information.
¶ 30 The majority fails to acknowledge this injustice. Instead, the majority agrees with the State that Edwards
should relitigate this matter in the ordinary appellate process because he does not meet the formal requirements for
prohibition relief. Supra ¶¶ 24-26. Even if I agreed with

17a
the majority that Edwards is not entitled to prohibition relief, I cannot agree with the majority's decision to ignore
the critical error underlying Edwards's convictions. For the
reasons explained below, I believe that this court should
exercise its supervisory authority to direct the circuit court
to vacate Edwards's convictions. Thus, I respectfully dissent.
¶ 31 In opposing Edwards's petition, the State argues, in
relevant part, that section 11(a) of the Timber Buyers Licensing Act (Act) criminalizes the violation of administrative rules and regulations promulgated under the Act. 225
ILCS 735/11(a) (West 2016). Initially, as the State correctly
concedes, it is important to recognize that the information
did not rely on section 11(a). Putting that fundamental defect aside for the sake of argument, I tend to agree with the
State's general proposition that the legislature has criminalized violations of administrative rules under section
11(a) of the Act.
¶ 32 It is undisputed that both counts in the information
charging Edwards with a criminal offense relied, in relevant part, on the administrative rule found in section
1535.1(b) of Title 17. 17 Ill. Adm. Code 1535.1(b) (2003).
Logically, then, this court's analysis should focus on the administrative rule that the State alleges that Edwards violated. The majority, however, does not even cite, let alone
analyze, the language of section 1535.1(b) of Title 17, the
administrative rule at the heart of the dispute here. In its
entirety, that rule provides:
“(b) Only persons listed with the Department [of Natural
Resources] as authorized buyers may represent the licensee. Authorized buyers shall designate in all contractual arrangements that the licensee is the timber buyer. Failure to

18a
comply with this provision shall constitute ‘buying timber
without a timber buyer's license.’ Authorized buyers may
only be listed on one license. To be eligible to hold a timber
buyer's license, the applicant must be at least 18 years of
age.” 17 Ill. Adm. Code 1535.1(b) (2003).
For purposes of this case, section 1535.1(b) of Title 17 is a
rather simple and straightforward administrative rule. It
plainly identifies and defines a single regulatory offense—
“buying timber without a timber buyer's license.”
¶ 33 Although the State's information cited that rule in
charging Edwards, the State did not allege that Edwards
committed the actual offense defined by section 1535.1(b)
of Title 17. Instead, in what has to be a truly unprecedented
maneuver, the State relied on that rule to charge Edwards
with a completely different offense. Specifically, the State
alleged that Edwards committed two counts of the purported regulatory offense of “unlawfully acting as a timber
buying agent for multiple licensed timber buyers.”
¶ 34 It is undisputed, however, that section 1535.1(b) of
Title 17 does not contain any reference to the offense Edwards was alleged to have committed, let alone identify the
elements of that charged offense. Although Edwards was
convicted of two counts of what appears to be a completely
new regulatory offense, the State has never identified the
elements of this supposed regulatory offense despite the
circuit court twice allowing the State to amend its information. Likewise, the majority here never identifies the
name of the underlying offense that supports Edwards's
convictions. Instead, the majority states that Edwards was

19a
“charged by information with two violations of the Timber
Buyers Licensing Act.” Supra ¶ 3.
¶ 35 It is not clear from the State's argument in this court
how an administrative rule can be used to support a criminal conviction of an alleged regulatory offense that the
rule itself never identifies or details. The State has not
cited, and my research has not revealed, any legal authority
allowing the State to rely on an administrative regulation
that defines one regulatory offense to obtain a criminal
conviction for a completely different, and undefined, regulatory offense. But that is exactly what has occurred in this
case.
¶ 36 If that glaring deficiency is not sufficiently concerning
to the majority, it is also readily apparent from the rule's
plain language that the prohibitions of section 1535.1(b)
of Title 17 are inapplicable to the conduct that was charged
against Edwards in the information. Count I of the information alleged that Edwards “knowingly acted as an authorized agent for multiple licensed timber buyers, being
listed as an agent for timber buyer Trent Copelen and acted
as agent for timber buyer Jonathan Luckett and represented himself as a timber buyer when attempting to enter
into an agreement with Donald Cook.” Count II alleged, in
relevant part, that Edwards “knowingly acted as an authorized agent for multiple licensed timber buyers, being listed
as an agent for timber buyer Trent Copelen and acted as an
agent for timber buyer Jonathan Luckett in selling timber
to Leroy Yoder of Plainview Pallet, Tom Farris of Farris Forest Products, John Peters of River City Hardwood, Inc.,

20a
Norman Hochstetler of Oak Ridge Lumber, LLC, and Michael Eichen of Eichen Lumber Company, Inc.”
¶ 37 As previously explained, the only administrative rule
cited in the State's information that could conceivably apply to the charged conduct is the rule contained in section
1535.1(b) of Title 17. The uncontested record, however,
shows that the alleged conduct does not violate any part of
that rule's four requirements.
¶ 38 First, an offender could violate the rule by failing to be
listed with the Department of Natural Resources as an authorized buyer to represent the timber buyer licensee. 17
Ill. Adm. Code 1535.1(b) (2003). Neither count of the information alleged that Edwards was not listed with the Department of Natural Resources as an authorized buyer. Second, an offender could violate the rule by failing to designate in all contractual arrangements that the licensee is the
timber buyer. 17 Ill. Adm. Code 1535.1(b) (2003). Neither
count of the information alleged that Edwards violated this
provision in any contractual arrangements. Third, the rule
could be violated if the offender is “listed” as an authorized
buyer on more than one timber buyer's license. 17 Ill. Adm.
Code 1535.1(b) (2003). Both counts of the information allege that Edwards was “listed as an agent for timber buyer
Trent Copelen,” but the charges do not specify any other
person for whom Edwards was “listed” as an authorized
buyer or agent. In other words, Edwards appears to have
complied with this provision. Last, an offender could violate the rule by applying for a timber buyer's license before
reaching the age of 18 years. 17 Ill. Adm. Code 1535.1(b)

21a
(2003). Neither count of the information alleges that Edwards applied for a timber license when he was a minor.
¶ 39 To summarize, the rule in section 1535.1(b) of Title
17 can potentially be violated in only four ways, but neither
charge in the two-count information alleged that Edwards
violated any of those four requirements or prohibitions. In
other words, it does not even appear from the face of the
State's information that Edwards belongs to a category of
offender that the administrative rule was intended to govern. Presumably, that is why the State chose to charge Edwards with committing a completely different and undefined regulatory offense than the one actually identified by
section 1535.1(b) of Title 17.
¶ 40 I understand my colleagues' reluctance to apply this
court's historically narrow jurisprudence on the extraordinary remedy of prohibition relief. Nonetheless, this court
need not turn a blind eye to a clear injustice. Nothing is to
be gained from expending more judicial resources on this
case by forcing Edwards to relitigate this matter in the
lower courts. And, contrary to the State's argument here,
this case presents an error much more serious than a simple defect in the charging instrument.
¶ 41 While supervisory orders are generally disfavored
outside of our leave-to-appeal docket (People ex rel. Birkett
v. Konetski, 233 Ill. 2d 185, 212, 330 Ill.Dec. 761, 909 N.E.2d
783 (2009) ), this court recently reaffirmed in a unanimous
decision that our supervisory authority over Illinois's judicial system is “unlimited in extent and hampered by no
specific rules” (Vasquez Gonzalez v. Union Health Service,
Inc., 2018 IL 123025, ¶ 16, 429 Ill.Dec. 32, 123 N.E.3d
1091). Of course, we exercise our supervisory authority
with restraint and “only under exceptional circumstances.”

22a
Vasquez Gonzalez, 2018 IL 123025, ¶ 17, 429 Ill.Dec. 32,
123 N.E.3d 1091.
¶ 42 I believe that this case presents that kind of exceptional circumstance. In what is hopefully an exceedingly
rare occurrence, the State in this case has obtained a criminal conviction for a regulatory offense that does not exist
based on charged conduct that is not criminalized by the
regulation cited in the information. We should not hesitate
to exercise our supervisory authority to correct this clear
injustice. See In re Estate of Funk, 221 Ill. 2d 30, 97-98, 302
Ill.Dec. 574, 849 N.E.2d 366 (2006) (explaining that this
court's supervisory authority “is bounded only by the exigencies which call for its exercise”). If a majority of this
court does not believe this case qualifies for prohibition relief, it should, in my opinion, exercise its plenary supervisory authority to enter a supervisory order directing the
circuit court to vacate Edwards's criminal convictions.

23a
Accordingly, I respectfully dissent.
¶ 43 JUSTICES BURKE and NEVILLE join in this dissent.

